U.S. Department of Labor

                                                                     OFFICE OF THE CHIEF 

                                                                     INFORMATION OFFICER



                      Office of Inspector General—Office of Audit





                                                                     IMPROVEMENTS NEEDED TO DOL’S CAPITAL
                                                                     PLANNING AND INVESTMENT CONTROLS FOR
                                                                     MANAGING INFORMATION TECHNOLOGY
                                                                     INVESTMENTS




                                                                                            Date Issued:     March 25, 2014
                                                                                         Report Number:    23-14-009-07-723
U.S. Department of Labor                                  March 2014
Office of Inspector General
Office of Audit                                           IMPROVEMENTS NEEDED TO DOL’S CAPITAL
                                                          PLANNING AND INVESTMENT CONTROLS
BRIEFLY…                                                  FOR MANAGING INFORMATION
                                                          TECHNOLOGY INVESTMENTS

Highlights of Report Number: 23-14-009-07-723, issued     AUDIT RESULTS
to the Chief Information Officer.
                                                          Our audit concluded DOL can improve management of
WHY READ THE REPORT                                       its IT investments by ensuring controls are timely
                                                          updated and followed. These actions will provide DOL
DOL spends about $500 million annually on a portfolio     with better information regarding its IT investments and
of information technology (IT) investments that support   help it more effectively manage IT investment cost,
its mission and the delivery of customer services. This   schedule, and performance.
level of spending requires DOL to develop and
implement a comprehensive approach to responsible         Of the 15 sampled IT investments we reviewed,
management of these IT assets. The report highlights      4 investments, costing about $365 million from
improvements DOL needs to make that would better          FY 2010 through FY 2012, were not classified as major
ensure these investments are properly managed, stay       investments consistent with DOL policy and were
within budget, and meet DOL program needs.                therefore not subjected to the full range of departmental
                                                          oversight. Furthermore, 3 of the 15 sampled IT
                                                          investments were not managed by certified project
WHY OIG CONDUCTED THE AUDIT                               managers as required by DOL’s System Development
                                                          Life Cycle Management (SDLCM) manual. Finally, we
Office of Management and Budget (OMB) A-11 requires       determined the maturity of DOL’s investment
the Department of Labor (DOL) to report on all funding    management process had not surpassed Stage 2 of
for IT investments, including IT security. Fully          GAO’s ITIM framework due to a number of factors not
documenting and properly classifying investments          fully present in DOL’s process. Greater maturity within
according to DOL policies and procedures is key to        the ITIM framework can strengthen an agency’s overall
establishing complete and accurate information for        security posture and help ensure that IT security is
prioritizing investments based on mission or program      appropriately planned and funded throughout the
needs. Implementing strong controls over IT               investment’s life cycle.
investments reduces the risks for cost overruns,
schedule shortfalls, or outcomes that do not meet         WHAT OIG RECOMMENDED
business needs or agency mission objectives.
Oversight is a critical component of the investment       We made 3 recommendations to the CIO to: 1) ensure
management process that ensures investment risks can      all IT investments are identified and included as part of
be effectively managed, tracked, and mitigated.           a comprehensive investment management process;
                                                          2) update DOL IT capital planning and investment
                                                          control policies, procedures, and documentation; and
Our audit objective was to answer the following           3) implement an investment management framework
question:                                                 consistent with National Institute of Standards and
                                                          Technology Special Publication 800-65.
Has DOL established effective controls to manage the
IT investment process?                                    The Office of Assistant Secretary for Administration and
                                                          Management’s Deputy Assistant Secretary for
                                                          Operations, responding for the Chief Information
                                                          Officer, stated the Office of the Chief Information Officer
READ THE FULL REPORT                                      accepts the recommendations in the audit report and
                                                          will take appropriate action to update Department-wide
To view the report, including the scope, methodology,     policies, processes, and procedures. These corrective
and full agency response, go to:                          actions are planned for completion in FY 2014.

http://www.oig.dol.gov/public/reports/oa/2014/23-14-
009-07-723.pdf.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK

                                                       U. S. Department of Labor – Office of Inspector General



Table of Contents

Inspector General’s Report .......................................................................................... 1


Results ........................................................................................................................... 2


          Objective - Has DOL established effective controls to manage the IT investment

          process? .............................................................................................................. 2


                    DOL’s investment management controls were not applied
                    uniformly, resulting in inadequate oversight of IT investments
                    and increased risk of investments not meeting DOL business
                    or program needs.

          A. DOL Investment Management Controls Were Not Effective ........................... 2

          B. Maturity of DOL's Investment Management at Stage 2 ................................... 8


Recommendations ...................................................................................................... 13


Exhibits
          Exhibit 1 DOL's 113 Investments ....................................................................... 15

          Exhibit 2 Investments Classified as Non-Major .................................................. 23

          Exhibit 3 Financial Management Investments Classified as Non-major ............. 25

          Exhibit 4 Investments Categorized as Not Applicable ........................................ 27

          Exhibit 5 Investments Missing Significant Portions of CPIC Documentation ...... 29


Appendices
          Appendix A Background ..................................................................................... 33

          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 35

          Appendix C Acronyms and Abbreviations .......................................................... 37

          Appendix D CIO Response to Draft Report ........................................................ 39

          Appendix E Acknowledgements ......................................................................... 41

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
                                  Report No. 23-14-009-07-723
                                      U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 25, 2014

                               Inspector General’s Report



T. Michael Kerr
Chief Information Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Clinger-Cohen Act requires each federal agency to implement processes for
maximizing the value and managing the risks of their information technology (IT)
investments. The Department of Labor (DOL) guides and supports its IT investment
project managers through the Capital Planning and Investment Control (CPIC) process.
All IT investments must comply with requirements of CPIC and its select, control, and
evaluate phases. To help project managers comply with the CPIC process, the Office of
the Chief Information Officer (OCIO) provides requirements and resources through
electronic CPIC (eCPIC) and through a CPIC guide.

Additionally, the Government Accountability Office (GAO) developed the Information
Technology Investment Management (ITIM) framework, which can be used to analyze
investment management processes to determine their level of maturity. For this audit,
we used the ITIM framework as a measurement of investment process maturity. This
measurement tool was provided within the National Institute of Standards & Technology
(NIST) Special Publication (SP) 800-65, which assists federal agencies in integrating IT
security into the capital planning process by providing a systematic approach to
selecting, managing, and evaluating IT security investments. This publication provided
the investment stages of maturity and identified the critical processes of the life cycle of
investments (see GAO ITIM chart on page 8).

We conducted an audit to answer the following question:

       Has DOL established effective controls to manage the IT investment
       process?

Our audit covered DOL’s portfolio of 113 IT investments (see Exhibit 1), which received
$1.43 billion in funding over Fiscal Years (FY) 2010, 2011, and 2012. For testing, we
judgmentally selected 15 IT investments by applying 7 risk factors to all 113 IT
investments. These 15 investments represented $725 million, or 51 percent, of the
$1.43 billion. Our areas of testing included: 1) key controls and performance indicators
of the IT investment management control processes; 2) IT investment policies and

                                                                          CPIC Needs Improvement
                                              1                         Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


procedures; 3) defined phases for select, control, and evaluate, investments; 4) key IT
investment classifications not recorded in CPIC documentation for FYs 2010, 2011,
and 2012; and 5) DOL’s CPIC processes relative to ITIM.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS

Objective - Has DOL established effective controls to manage the IT investment
process?

      DOL’s investment management controls were not applied uniformly,
      resulting in inadequate oversight of IT investments and increased risk of
      investments not meeting DOL business or program needs.

A. DOL Investment Management Controls Were Not Effective

DOL policy required monitoring of all major investments whose value exceeded the
DOL policy specified dollar threshold. However, the selective exclusion of some
investments may have resulted in unreliable measurement of total IT investment
performance results and provided limited executive visibility to any high risk CPIC
investment activities.

Our audit found DOL can improve management of its IT investments by ensuring
controls are timely updated and followed, which will result in better information to
effectively manage IT investment cost, schedule, and performance. DOL demonstrated
a high degree of undocumented discretion in investment oversight and monitoring. This
discretion led to the weakening of DOL’s IT management process resulting in the
exclusion of investments for management under current policies and procedures; the
by-passing of controls intended to ensure monitoring took place across all investment
phases; non-compliance to provide for full public disclosure within the OMB IT
Dashboard; and increased risk that individual investment projects were not being
prioritized based on mission needs. Without complete and accurate information on all IT
investments, DOL management would not be able to make fully informed decisions or
fully consider risks.

In our review of 15 sampled IT investments, we found 4 investments, totaling about
$365 million from FY 2010 through FY 2012, which were not classified as major
investments per DOL policy and were therefore not subjected to the full range of
oversight by the CPIC process. We also found 3 investments were not managed by



                                                                CPIC Needs Improvement
                                            2                 Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


certified project managers as required by DOL’s System Development Life Cycle
Management (SDLCM) manual.

DOL Classification of Investments

We found 4 investments, totaling about $365 million from FYs 2010 through 2012 that
did not follow existing, written DOL IT investment management controls or DOL policy
requirements for monitoring major investments. Those investments were:

   •	 DOL Agency General Support System (AGSS)
   •	 The Office of the Assistant Secretary for Administration and Management

      (OASAM) DOL IT Infrastructure Modernization (DITIM)

   •	 Bureau of Labor Statistics (BLS) Technical Management & Strategic

      Activities (TMSA)

   •	 OASAM Acquisition Management System (AMS)

We identified inconsistent IT investment classifications. The DOL policy to identify and
classify major IT investments was not followed. Specifically, the IT Capital Planning and
Investment Control Guide: Managing IT Investments, version 2.1, October 2011 (CPIC
Guide) required all high-value IT investments be subjected to increased oversight
because of their significant cost and potential risk to the government. This policy
required monitoring of all major investments more than the DOL CPIC policy-specified
dollar threshold. The CPIC Guide stated that any IT investment with annual costs at or
above $5 million each year should be classified as a major investment.

DOL’s portfolio of investments was annually reported to OMB within DOL’s submission
of the OMB Exhibit 53. The Exhibit 53 must demonstrate the agency’s management of
IT investments and how governance processes were used to plan, select, develop,
implement, and operate IT investments. This documentation was used to manage the
planning, development, implementation, and operation of IT investments and
documents that demonstrate the outcomes of agency, branch, and bureau governance
decisions and should be maintained and be available on request. For the IT investment
portfolio reported in the Exhibit 53, the OMB Exhibit 300 described the justification,
planning, and implementation of an individual capital asset included in the agency IT
investment portfolio and served as a key artifact of the agency’s EA and IT capital
planning processes. The Exhibit 300 was comprised of two components--300A and 300B.
The Exhibit 300A provided key high-level investment information to inform budget
decisions, including general information and planning for resources, such as staffing and
personnel. The Exhibit 300B provided temporal information, related to tracking
management of an investment, such as projects and activities, risks, and operational
performance of the investment. We compared DOL’s OMB Exhibit 53 reports to its
investment portfolio listings for FYs 2010 through 2012 and identified discrepancies for
9 investments within specific FYs that were classified as non-major in DOL’s IT portfolio
(see Exhibit 2).


                                                                CPIC Needs Improvement
                                            3                 Report No. 23-14-009-07-723
                                               U. S. Department of Labor – Office of Inspector General


Also, financial management systems were classified as non-major investments.
According to the CPIC Guide, all investments for financial management systems1
costing $500,000 or more each year are required to be classified as major. We
reviewed all 15 of DOL’s financial management investments2 and identified investments
more than $500,000 that should have been classified as major, but were not. We
determined that 5 investments, valued at $50.3 million, had been classified as
non-major in DOL’s IT portfolio (see Exhibit 3).

Specifically, there were two investments, 3 totaling $293.9 million, which were not always
managed using CPIC and did not always use eCPIC per DOL’s policies and guidance
(see Exhibit 4). These two investments were not categorized in the select, control, or
evaluate phases, but were instead identified as not applicable. The OCIO stated an
alternative process to CPIC was used for these investments, but this alternative process
was not documented. The OCIO also stated these investments were not subject to a full
level of CPIC processes and oversight because they were not categorized as major
investments. Not following the existing DOL IT investment management controls, such
as documenting the select, control, and evaluate phases, resulted in inconsistent
application of existing IT portfolio management policies and processes.

CPIC officials also stated:

        For the President's Budget, EA [Enterprise Architecture], IT capital
        planning, and CIO function investments are not categorized as major
        investments and an Exhibit 300 is not required for them. ...TMSA is an EA
        and/or Capital Planning investment and therefore was not subject to the
        full Exhibit 300 level of CPIC processes and oversight.

CPIC officials explained that since OMB reporting instructions did not include EA
investments, these types of investments were not to be included in the established
CPIC process or subjected to CPIC controls. The OMB instructions provided by CPIC
officials stated external reporting for CPIC activities was not required with Exhibit 300
reporting for major investments for FY 2013 and following FYs. However, according to
OMB A-11 instructions, DOL was required to monitor the performance of these activities
through internal monitoring and internal documentation. Exclusion from OMB reporting
was permitted for FY 2013 due to the 2012 published FY2013 OMB Guidance on
Exhibits 53 and 300s, which stated:

        … EA, IT capital planning, and CIO function investments are not
        categorized as major investments and an Exhibit 300 is not required for

1
  OMB Circular A-127 defines a financial system as an information system that may perform all financial functions

including general ledger management, funds management, payment management, receivable management, and cost

management. Other uses include supporting financial planning, budgeting activities, and preparing financial

statements. 

2
  DOL OCIO listed 15 financial management systems in the Cyber Security Assessment and Management (CSAM) 

tool between FY2010 and FY2013.

3
  DOL AGSS is a sub-agency individually managed general support systems and IT Infrastructure investment. BLS

TMSA is an investment that provides administrative support to the various IT offices within BLS.


                                                                                CPIC Needs Improvement
                                                        4                     Report No. 23-14-009-07-723
                                    U. S. Department of Labor – Office of Inspector General


      them. Any capital planning and investment control process investments
      may be reported separately in this section.

We believe DOL misinterpreted the reporting exclusion for monitoring EA
investments in FY2013. OMB did not instruct to exclude investments within FY
2011 and FY 2010, but did instruct to exclude external EA reporting in FY 2013.
OMB did not provide instruction excluding the performance of monitoring or
continued use of internal investment controls on EA investments covering this
three year period.

OMB Circular A-11 requires IT investment reports to be provided in accordance
with the Clinger-Cohen Act. OMB A-11 states:

      Investment costs and performance benefits must be formulated and
      reported in order to support the Clinger-Cohen Act's requirement that the
      OMB Director shall submit to Congress a report on the net program
      performance benefits achieved as a result of major capital investments
      made by executive agencies in information systems and how the benefits
      relate to the accomplishment of the goals of the executive agencies.

More specifically, the Guide to OMB Circular A-11 also states:

      As agencies continue to utilize EA to model performance, business
      processes and services, decision makers must create clear line-of-sight
      relationships between investments in capital assets and specific
      components in the EA. For example, the business case for a capital asset
      must document the specific performance measures that are affected by
      the investment and how those measures are affected. The same clarity
      should exist for business processes, services delivered and data managed
      by a capital asset.

Additionally, DOL policy required monitoring of all major investments whose value
exceeded the DOL policy-specified dollar threshold. However, the DOL CPIC policies
did not include the updated FY 2013 OMB-instructed exclusions to EA investments.
DOL’s CPIC Guide required management of the full IT portfolio. OMB’s updated
instructions did not instruct DOL to exclude management of EA activities; rather, OMB
instructed not to report on EA in FY 2013. Selectively excluded investments may result
in not effectively measuring the total investment performance results against the EA and
provide limited executive visibility to any high risk CPIC investment activities.

Another two investments were missing OCIO-required CPIC documentation (see
Exhibit 5). Significant portions and projects within OASAM DITIM and OASAM AMS
investments remained undocumented. In our tested investments, the three control
phases were not timely updated within documentation and did not correctly document
changes to investment select, control, or evaluate phases. The parts missing from these
investments were:


                                                               CPIC Needs Improvement
                                           5                 Report No. 23-14-009-07-723
                                                 U. S. Department of Labor – Office of Inspector General



    1)	 OASAM DITIM – The investment totaled $59.8 million between FY 2010 

        and FY 2012. The project management plan described this investment as

        having 9 major IT infrastructure silos4 with a shared information 

        environment. Three of the 9 silos were identified as support functions. For 

        these 3 silos, management did not provide documentation to support

        critical CPIC activities, such as quarterly, annual, and scorecard reviews

        performed at any time between FY 2010 through Quarter 1 of FY 2013.

        The 3 silos were:


             •	 IT Modernization Program Management (ITMPM)
             •	 IT Modernization Change Management (ITMCMP)
             •	 IT Modernization Enterprise Architecture (ITMEA)

         2) OASAM AMS – The investment totaled $11.4 million between
            FYs 2010 and 2012, with the baseline 5 being reported to OMB in
            FY 2012. DOL’s select phase policies stated that baseline
            documentation and artifacts should have been provided in eCPIC in
            order to create the baseline reported and included in OMB Exhibit 53
            and OMB Exhibit 300 materials. 6 No baseline documentation was in
            eCPIC and limited documentation was provided for FY 2011 for
            planning the baseline. The final DOL-approved baseline
            documentation did not occur until June 2013. The select phase for this
            investment lasted through the duration of 3 fiscal years with minimal
            select phase oversight on IT spending. The DOL OCIO CPIC group
            explained that the AMS acquisition contract was contested through the
            identified years; however, development-related spending was not
            suspended or tracked with a defined baseline to provide investment
            risk management. Delays from the contested contract award were not
            documented either within the risk registry documentation or within the
            WBS documentation. 7 Also, significant funding adjustments were not
            documented within eCPIC or associated select phase documentation,
            as required. This lack of documentation resulted in a misstatement to
4
  A silo is an information system that is unable to freely communicate with other information management systems.
Communication within an information silo is always vertical, making it difficult or impossible for the system to work
with unrelated systems. Information silos may also exist because managers control the flow of information and
access to the silo indicating an incentive exists for maintaining status quo.
5
  Per FAR Subpart 34.2 and OMB’s Capital Programming Guide, a supplement to Circular A-11, Part 7, agencies
shall implement an Integrated Baseline Review (IBR) or baseline validation process as part of an overall investment
risk management strategy. As part of this process, requested adjustments to an existing investment baseline
(i.e. “rebaselining”) should only be made if the program manager can demonstrate a high probability of success and a
benefit-cost result that justifies continued funding after comparison with the other alternatives in the portfolio and
budget limitations.
6
  The information contained within Exhibit 53 and 300 reports over multiple reporting periods is used by OMB to
continually provide the U.S. public government-wide investment information through the website:
http://www.itdashboard.gov.
7
  OMB A-11 Capital Planning Guide states the Work Breakdown Structure (WBS) is an integrated family tree that
defines all the products and services comprising the investment program. The WBS provides the framework for
estimating the program's cost and risk during the pre-systems acquisition planning and for developing the program
schedule.

                                                                                   CPIC Needs Improvement
                                                          6                      Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


          OMB for reporting the baseline status, and in June of 2013 a revision
          to the OMB IT Dashboard was made to reflect the DOL-approved
          baseline.

CPIC officials stated the CIO had discretion in managing the investments and this
discretion allowed for the removal of investments from the CPIC process and classifying
investments outside the documented policy and procedures. Discretion may have been
used by the CIO to remove investments from the existing CPIC process and to classify
investments contrary to policy and procedures. However, there were no existing policies
or procedures that permitted and guided unilateral or coordinated discretion by the CIO.

This high degree of undocumented discretion has led to the weakening of DOL’s IT
management process, which resulted in: the exclusion of investments for management
under current policies and procedures; the by-passing of controls intended to ensure
monitoring took place across all investment phases; non-compliance to provide for full
public disclosure within the OMB IT Dashboard; increased risk that individual
investment projects were not being prioritized based on mission needs and
improvement priorities; the use of uncertified project managers; and potential risks of
DOL not meeting business or program needs.


IT Investments Identified With Non-Certified Project Managers

We found three DOL IT Investments, EFAST2, AGSS, and TMSA, which were not
managed by certified project managers. Without use of certified project management,
DOL did not ensure that investments were consistently monitored and that investment
risks were fully reported by trained personnel.

The Employment Benefits and Security Administration’s (EBSA) project manager was
not certified as required by DOL’s SDLC Management (SDLCM) manual. The project
manager’s investment was classified as major and funded for $42.5 million from
FYs 2010 to 2012. While the project manager attempted to obtain a waiver in 2009, no
response was received from the OCIO and no program agency follow-up was ever
conducted on the status of the waiver with OCIO. Additionally, there were two
investments improperly classified that had non-certified project management
professionals. Due to DOL AGSS ($276.2 million) and TMSA ($17.7 million) not being
properly classified, management did not apply the major investment requirement to
have a certified project management professional overseeing these investments. If
these investments had been managed within the CPIC process, they would have been
required to be managed by certified project management professionals.

OMB Memorandum for Chief Acquisition Officers on April 25, 2007, The Federal
Acquisition Certification for Program and Project Managers, states:

      Well-trained and experienced program and project managers are critical to
      the acquisition process and the successful accomplishment of mission


                                                                CPIC Needs Improvement
                                            7                 Report No. 23-14-009-07-723
                                                U. S. Department of Labor – Office of Inspector General


        goals. A strong partnership between program and project managers and
        contracting professionals requires a common understanding of how to
        meet the government’s needs through acquisitions that deliver quality
        goods and services in an effective and efficient manner.

Ensuring well-trained and experienced program managers lead IT investment oversight
reduces potential risks for cost overruns, schedule shortfalls, or outcomes that do not
meet business needs or agency mission objectives.

NIST SP 800-65, Integrating IT Security into the Capital Planning and Investment
Control Process, required the adherence to GAO’s best practices, three-phased
investment life-cycle model for federal IT investments. NIST SP 800-65 included the
GAO ITIM five-stage framework maturity model in section 2.4 Information Technology
Investment Management. These required critical processes 8 were used in testing DOL’s
investment management processes for maturity.


B. Maturity of DOL’s Investment Management at Stage 2

We assessed DOL’s CPIC and investment management processes against GAO’s ITIM
framework and found DOL’s CPIC processes were at Stage 2, Building the Investment
Foundation. A fully utilized investment management framework can produce more
consistent IT investment results. These results include: minimizing the risk of not
meeting mission needs, reducing cost-overruns, and may consistently produce more
timely results. The use of an effective maturity framework can mature an organization’s
investment planning and management decision making capabilities.

NIST SP 800-65 provides methodology for managing investments through GAO’s ITIM
maturity framework. This framework presented in NIST guidance is referred to as a
model methodology. Agencies should work within their investment planning
environments to adapt and incorporate the pieces of this process into their own unique
processes to develop workable approaches for CPIC. If incorporated into an agency’s
processes, the methodology can help ensure that IT security is appropriately planned
for and funded throughout the investment’s life cycle, thus strengthening the agency’s
overall security posture. The maturity stages of ITIM are shown in the following chart.




8
 NIST SP 800-56 provided the ITIM framework for defining the critical processes and key practices for investment
management. NIST directed agencies to use GAO-04-394-G, Information Technology Investment Management, A
Framework for Assessing and Improving Process Maturity, Version 1.1, March 2004.

                                                                                 CPIC Needs Improvement
                                                         8                     Report No. 23-14-009-07-723
                                              U. S. Department of Labor – Office of Inspector General




Each stage of maturity builds upon the lower stages and enhances an organization’s
ability to manage its IT investments. According to the GAO framework, the organization
assessed cannot achieve the next stage of maturity should there be weaknesses
identified in the previous stage. Although we identified weaknesses in CPIC and eCPIC
controls, we determined the maturity of DOL’s CPIC process for IT investments was
consistent with Stage 2 maturity, Building the Investment Foundation. We made this
determination because of insufficient monitoring to ensure the CPIC and eCPIC controls
were applied to all IT investments. Adequate monitoring would have provided increased
completeness of the information and accuracy of the data and adherence to established
policies and procedures. WBSs were either not documented or not fully documented,
such as security cost information not being included.

Further, because DOL investment management had not developed a complete
investment portfolio and instead used other alternative, non-documented processes,
advancement to higher stages within the ITIM framework was also prohibited.
Additionally, program agency investment managers’ WBSs were either not documented
or were not fully documented in 7 of 15 investments reviewed. 9 Finally, DOL’s
Enterprise Implementation Committee did not document any results of their IT
investment-related meetings and decisions for FY 2012.

At Stage 1 maturity, Creating Investment Awareness, DOL had a defined and
disciplined investment processes. DOL created a specified group, the OCIO CPIC
group, tasked to assist agencies and project managers in performing investment
management activities and to assist in reporting investment performance results to


9
  Investments’ Work breakdown Structure (WBS) were not provided or were missing vital information from these
investments: EBSA EFAST2, OCFO PeoplePower, DOL IT Infrastructure Modernization, DOL AGSS, Mine Safety
and Health Administration (MSHA) Mine Safety Information System (MSIS), SOL IT Modernization, and OASAM
AMS.

                                                                               CPIC Needs Improvement
                                                       9                     Report No. 23-14-009-07-723
                                                U. S. Department of Labor – Office of Inspector General


OMB. Furthermore, DOL defined critical ITIM processes through the following policies
and procedures, which program agencies were to follow and consistently apply:

     •   eCPIC Guide v 2.1 Oct 2011
     •   SDLCM Manual
     •   DLMS 9 – Chapter 200
     •   Earned Valued Management Policy
     •   DOL Exhibit 53 Instructions
     •   DOL Exhibit 300 Guide
     •   Baseline Management Guide v.1
     •   Investment Review Requirement

However, for Stage 2, we found DOL’s ITIM processes were only partially completed,
contained significant gaps, or were not fully implemented. Specific examples of
weaknesses in critical DOL CPIC processes included the following:

Post Implementation Review (PIR) not performed and overlooked – Of the investments
tested by OIG, a PIR for one of two investments in the evaluate phase was not
performed by program agency investment management. PIRs were to be performed to
document effective IT investment management practices, to ensure continuous
improvement in IT Investment decision and management processes, and to help avoid
repeating mistakes in future IT projects. For example, DOL’s FY 2013 IT Investment
Review Requirements, dated February 20, 2013, required PIRs to be performed within
12-18 months of full system implementation. Once the OCIO approved PIRs, as well as
other control phase requirements, the investments were to change from the control
phase to the evaluate phase. We found that a PIR had not been performed for one of
two 10 investments in the evaluate phase. Specifically, the Office of Public Affairs (OPA)
was not able to provide a completed PIR for the Enterprise Communications Initiative
(ECI) Investment. At the time of OIG testing, the ECI investment had been in the
evaluate phase for over 18 months. According to CPIC policies, this investment should
not have been moved to the evaluate phase until the PIR had been submitted and
approved by the OCIO.

Non-performance of Cost Benefit Analysis and Incomplete Analysis of Alternatives– Of
the investments tested, 7 of 15 were found to be deficient. DOL guidance requires each
investment to have a Cost Benefit Analysis (CBA) that requires at least 3 viable
alternatives be evaluated and compared consistently, detail the cost and benefits for
each alternative, and provide a detailed justification for the selected alternative.

Of the seven investments reviewed, three did not have a CBA in place. 11 Four other
investments had CBAs, but were outdated to the extent the documented alternatives



10
   We selected 15 investments to review for compliance with Departmental Capital Planning policies and procedures.

Of the 15 investments selected for review, two investments were in the Evaluate phase.

11
   Investments without a CBA included DOL AGSS, BLS TMSA, and OASAM AMS.


                                                                                 CPIC Needs Improvement
                                                        10                     Report No. 23-14-009-07-723
                                                 U. S. Department of Labor – Office of Inspector General


could no longer be relied upon. 12 For example, the CBA for the Office of the Chief
Financial Officer’s (OCFO) New Core Financial Management System (NCFMS) referred
to retired information systems, such as the DOL Accounting and Related System and
NCFMS Lean, retired in 2010 and 2006, respectively, which were no longer considered
realistic or reasonable alternatives.

Furthermore, three 13 CBAs did not consider disposition costs or inconsistently included
disposition costs for some of the presented alternatives. This resulted in inconsistent
comparison of the documented alternatives and potentially resulted in the selection of a
less cost effective alternative. As a result of these CBA deficiencies, decision makers
were not provided with a complete analysis of alternatives, requirements, costs, and
benefits. Without a complete and accurate analysis of the project, senior management
was hampered in their ability to make an informed decision to continue funding these
specific projects and the overall investments. Furthermore, incorrect analysis may have
lead senior management to approve projects at risk for cost overruns, not meeting
goals, or not being completed within schedule.

Risk management activities not performed and incomplete – Of the investments tested,
8 of 15 had poorly documented and inconsistently maintained investment risk
management processes. The DOL risk management process required a risk register to
be developed for each investment in order to capture, track, and prioritize the individual
project risks based on the probability and impact of risk materialization. The risk register
should include a list of lessons learned that was required to be actively managed and
updated on an ongoing basis.

Of the 8 investments with deficiencies, 2 14 did not have required, documented risk
registers. Furthermore, we found 5 investments 15 that had risk registers that were not
being updated on a consistent basis. OPA’s ECI did not address all 19 required risk
areas. 16

Not documenting risks impacted DOL’s risk management process and capability to
monitor defined risks to the point that risks may not have been effectively identified,
managed, tracked, or mitigated. Also, without a complete risk register that identifies how
project staff will respond to specific risks, DOL may not be able to properly respond to
unplanned incidents or to remediate project risks, which may contribute to cost
overruns, schedule shortfalls, and an investment’s inability to perform as expected.


12
   Investments that had a CBA, but whose CBA was so outdated the documented alternatives could no longer be

relied upon, included: OCFO NCFMS, MSHA MSIS, SOL IT Modernization Investment, and DOL DITIM.

13
   Investments with inconsistent consideration of disposition costs included: OCFO NCFMS, SOL IT Modernization

Investment, and OASAM AMS.

14
   Investments that did not provide documented risk registers included: BLS TMSA and DOL AGSS.

15
   The five investments whose risk registers were not updated on a consistent basis, including not updating the 

lessons learned portion of the risk register, included: Occupational Safety and Health Administration OSHA 

Information System , SOL IT Modernization, OASAM AMS, WHD WDS, and OCFO NCFMS.

16
   Review of OPA ECI investment’s risk register resulted in 7 of 19 risk areas not being documented or considered.

Those 7 risk areas not considered were asset protection consideration, overall risk of project failure, project

resources/financial, technical, business/operational, organizational and change management, and strategic risks.


                                                                                   CPIC Needs Improvement
                                                         11                      Report No. 23-14-009-07-723
                                                U. S. Department of Labor – Office of Inspector General


Earned Value Management (EVM) or Operational Analysis was not performed on tested
investments – In 2004, the OCIO issued guidance on its EVM policy establishing dollar
thresholds for which major IT projects must implement EVM or, if not required to
implement EVM, should perform an Operational Analysis. 17 We reviewed all
investments to determine if EVM had been implemented or if an Operational Analysis
had been performed and determined 3 of 15 investments could not provide evidence of
having implemented EVM or performed an Operational Analysis. 18 Furthermore, we
noted one of the investments, the OCFO PeoplePower investment, provided an
Operational Analysis, but no cost or schedule variances were included in the analysis.
The OCFO stated no variances had been calculated since FY 2011 because the
investment is in a steady state and is due to be decommissioned in FY 2014. While the
OIG agrees the investment’s spending has been consistent for the last few years and it
will soon be decommissioned, OCIO guidance requires an Operational Analysis to be
performed until the investment is decommissioned or no longer meets the EVM dollar
threshold. Improperly recording the project’s cost and schedule variances hamper
management’s ability to take corrective actions against cost and schedule overruns
before tasks are completed.

Capital Planning resources were inconsistently tracked or documented – DOL’s
Computer Security Handbook contains policies and procedures to ensure information
security is addressed in the capital planning and investment process. OCIO required
program agencies to record information security resource funding allocations within the
individual investment’s Project Plan, or Work Breakdown Structure (WBS). We identified
4 of 15 investments19 that did not contain verifiable information or a discrete line item for
information security. This was mostly due to incomplete information provided by the
program agencies in completion of its Project Plans or WBS. Without properly tracking
IT security funding, DOL is unable to ensure funding for critical security needs remains
cost effective, is well-planned, and adequately considered for making critical investment
decisions.

As DOL strives to improve critical CPIC processes to higher levels of maturity, the
weaknesses identified in earlier stages of the ITIM framework must be resolved. Also,
not fully performing and following required CPIC activities resulted in incomplete or
incorrect information for investment decision-making and oversight.




17
   OCIO Guidance for the DOL Earned Value Management System Methodology, dated September 27, 2004,

requires major investments in the operational or “steady state” phase where EVMS is not required to use operational

analysis to determine how close the investment is to meeting its operational cost, schedule and performance goals.

18
   The OCFO NCFMS investment could not provide evidence of performing EVM or Operational Analysis; the WHD

WDS investment could not provide evidence of Operational Analysis from FY 2010 to FY 2012; and the MSHA MSIS

investment could not provide evidence of performing an Operational Analysis in 2010.

19
   Those investments in which we were unable to verify that a discrete line item for IT security testing had been 

established included: OASAM AMS, BLS TMSA, DOL AGSS, and DOL DITIM.


                                                                                  CPIC Needs Improvement
                                                        12                      Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


RECOMMENDATIONS

We recommend the CIO:

1. Perform a DOL-wide review of the IT Portfolio and the Investment Management
Process to verify classification of all IT investments meets DOL’s policies and
procedures.

2. Update IT capital planning and investment control policies, procedures, and
documentation to reflect and clarify: (a) use of the capital planning tool, and (b) the
comprehensiveness of the investment management process and enforcement to
maintain required eCPIC documentation for critical processes involving select, control,
and evaluate phases.

3. Implement an investment management framework consistent with NIST SP 800-65
and which aligns with GAO’s ITIM maturity framework to strengthen DOL’s approach to
IT investment management.

CIO’S RESPONSE

The Office of Assistant Secretary for Administration and Management’s Deputy
Assistant Secretary for Operations, responding for the Chief Information Officer, stated
that the Office of the Chief Information Officer accepts the recommendations in the audit
report and will take appropriate action to update Department-wide policies, processes
and procedures. These corrective actions are planned for completion in FY 2014. See
Appendix D for the CIO’s entire response.

We appreciate the cooperation and courtesies OCIO personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                CPIC Needs Improvement
                                           13                 Report No. 23-14-009-07-723
            U. S. Department of Labor – Office of Inspector General




Exhibits





                                       CPIC Needs Improvement
                  14                 Report No. 23-14-009-07-723
                                               U. S. Department of Labor – Office of Inspector General


Exhibit 1
DOL’s 113 Investments

All costs were extracted as reported from DOL’s OMB Exhibit 53 and rounded to two
decimal places. 20

                                                                                                       Total
                                                                                                     FY 2010 to
                                                       FY 2010    FY 2011    FY 2012
                                                                                                      FY 2012
       Agency            CPIC Investment                Actual     Actual     Actual
                                                                                                       Actual
                                                         Cost       Cost       Cost
                                                                                                       Costs
                                                      (millions) (millions) (millions)
                                                                                                     (millions)
                    ALJ Case Tracking System
1         ALJ
                    (CTS)
                                                           $1.58        $1.87           $1.61            $5.06
                    American Time Use Survey
2         BLS
                    Systems
                                                           0.32          0.78            0.79             1.89
                    Compensation and W orking
3         BLS       Conditions Activities &                0.17          0.18            0.19             0.54
                    Systems
                    Consumer Expenditure and
4         BLS
                    Information Systems
                                                            3.4          3.35            3.38            10.13
                    Consumer Price Index (CPI)
5         BLS
                    Maintenance
                                                           12.73        12.47           15.08            40.27
                    Current Employment
6         BLS
                    Statistics (CES) Maintenance
                                                           7.07          5.71            5.71            18.49
                    Current Population Survey
7         BLS
                    (CPS) Maintenance
                                                           1.06          1.15            1.16             3.38
                    Employment Projections
8         BLS
                    Systems
                                                           0.15          0.15            0.15             0.46
                    Employment and
9         BLS       Unemployment Statistics                0.81          0.21            0.21             1.24
                    Cross-Cutting Activities

10        BLS       Executive Direction Activities         0.20          0.15            0.16             0.51
                    Industrial Prices Systems
11        BLS
                    (IPS)
                                                           15.87        16.03           16.15            48.04
                    Internet Data Collection
12        BLS
                    Facility (IDCF)
                                                           1.25          1.78            1.79             4.82
                    Job Openings and Labor
13        BLS
                    Turnover Statistics Systems
                                                           0.07          0.17            0.17             0.41


  All funding was based on OMB Exhibit 53s from: Budget Year (BY) 2014 submitted on September 10, 2012,
20

BY 2013 submitted on May 2, 2012, and BY 2012 submitted on May 24, 2011. The BY occurred from October 1 to
September 30 of the following year and was submitted by each federal agency to OMB prior to October. The May
submissions also contained approved budget passback information provided from OMB to DOL. The May
submissions updated the original proposed budgets submitted to OMB in September of the previous year. BY 2014
did not include May passback information in the list of 113 investment information provided.

                                                                               CPIC Needs Improvement
                                                      15                     Report No. 23-14-009-07-723
                                         U. S. Department of Labor – Office of Inspector General


                                                                                         Total
                                                                                       FY 2010 to
                                                FY 2010    FY 2011    FY 2012
                                                                                        FY 2012
     Agency       CPIC Investment                Actual     Actual     Actual
                                                                                         Actual
                                                  Cost       Cost       Cost
                                                                                         Costs
                                               (millions) (millions) (millions)
                                                                                       (millions)
14    BLS     LABSTAT Maintenance                   4.87       5.20         5.23           15.3
              Local Area Unemployment
15    BLS
              Statistics Systems
                                                    1.90       2.98         3.01           7.89
              Management Information
16    BLS
              System
                                                    2.59       2.69         2.70           7.98
              Mass Layoff Statistics
17    BLS
              Systems
                                                    1.08       0.90         0.91           2.89

18    BLS     Measuring Green-Collar Jobs           0.08       0.15         0.22           0.44
              National Compensation
19    BLS
              Survey (NCS) Maintenance
                                                    6.44       6.54         5.70          18.68
              National Longitudinal Surveys
20    BLS
              Systems
                                                    0.00       0.00         0.00           0.01
              Occupational Employment
21    BLS
              Statistics Systems
                                                    2.47       1.13         1.13           4.73
              Occupational Safety & Health
22    BLS
              Statistics (OSHS) Systems
                                                    3.29       3.12         3.14           9.55
              Planning and Control
23    BLS
              Activities
                                                    4.96       3.61         3.64          12.20
              Prices and Cost of Living
24    BLS
              Cross-Cutting Activities
                                                    0.79       0.35         0.36           1.5
              Product Research and
25    BLS
              Certification Activities
                                                    1.08       1.46         1.47           4.01

26    BLS     Productivity Maintenance               0.2        0.2         0.63           1.03
              Productivity and Technology
27    BLS
              Activities & Systems
                                                    0.26       0.27         0.27           0.8
              Quarterly Census of
28    BLS     Employment and W ages                 5.39       7.12         6.88          19.39
              (QCEW) Systems
              Technology Management &
29    BLS
              Strategic Activities
                                                    6.07       5.86         5.74          17.66
              DOL - Agencies' General
30    DOL
              Support Systems
                                                    78.46      98.53        99.22        276.21
              DOL - Appeals Management
31    DOL
              System
                                                    0.87       0.46          0.6           1.93
              DOL - IT Infrastructure
32    DOL
              Modernization (DITIM)
                                                    19.54      16.23        24.04         59.81


                                                                    CPIC Needs Improvement
                                               16                 Report No. 23-14-009-07-723
                                         U. S. Department of Labor – Office of Inspector General


                                                                                         Total
                                                                                       FY 2010 to
                                                FY 2010    FY 2011    FY 2012
                                                                                        FY 2012
     Agency       CPIC Investment                Actual     Actual     Actual
                                                                                         Actual
                                                  Cost       Cost       Cost
                                                                                         Costs
                                               (millions) (millions) (millions)
                                                                                       (millions)
33    DOL     DOL eGrants                           5.22        3.1         3.65          11.97
              DOL-Wide Enterprise
34    DOL
              Architecture Program (EAP)
                                                     2.3                                   2.3

35    EBSA    EFAST2                                12.82      13.61        16.09         42.52
              Mission Critical Core IT
36    EBSA
              Activities
                                                    0.99       0.99         0.99           2.97
              Mission Support Activities
37    EBSA
              (MSA)
                                                    4.51       4.73         4.75          13.99
              ETA Application Support
38    ETA
              Services
                                                    3.87       3.73         3.84          11.44
              ETA General and Customer
39    ETA
              Support
                                                     0.9        0.8         0.89           2.59

40    ETA     ETA Planning and Control              3.09       1.85         1.90           6.84
              Enterprise Business Support
41    ETA
              System (EBSS)
                                                    11.63      5.70         6.23          23.56
              Foreign Labor Certification
42    ETA
              Systems (FLCS)
                                                    11.30      10.75        9.33          31.38

43    ETA     Job Corps LAN/W AN                    20.44      26.04        14.18         60.65
              Job Corps Student Pay
44    ETA     Allotment Management                  10.43      11.94        12.21         34.58
              Information System (SPAMIS)
              Unemployment Insurance
45    ETA     Database Management                   3.98       3.69         4.27          11.94
              System
              MSHA Application Support
46   MSHA
              Services
                                                    1.01       1.05         1.08           3.14
              MSHA Distance Learning and
47   MSHA
              Web-based Training
                                                    0.25       0.25         0.25           0.75
              MSHA Enterprise
48   MSHA     Architecture/Planning and             2.02        2.1         2.19           6.31
              Control
              MSHA Internet /Intranet
49   MSHA
              Maintenance
                                                     0.2        0.2         0.21           0.61
              MSHA Standardized
50   MSHA
              Information System (MSIS)
                                                    6.55       6.98         6.53          20.06



                                                                    CPIC Needs Improvement
                                               17                 Report No. 23-14-009-07-723
                                        U. S. Department of Labor – Office of Inspector General


                                                                                        Total
                                                                                      FY 2010 to
                                               FY 2010    FY 2011    FY 2012
                                                                                       FY 2012
     Agency       CPIC Investment               Actual     Actual     Actual
                                                                                        Actual
                                                 Cost       Cost       Cost
                                                                                        Costs
                                              (millions) (millions) (millions)
                                                                                      (millions)
              Mine Accident, Injury, and
51   MSHA
              Employment System (MAIES)
                                                   0.4        0.42         0.43           1.25
              Acquisition Management
52   OASAM
              System (AMS)
                                                   2.14       2.14         7.14          11.43
              Application Maintenance and
53   OASAM
              Support
                                                   1.45       1.52         1.56           4.53

54   OASAM    Benefits.gov                         4.66       3.56          3.2          11.42

55   OASAM    CIO Activities                       5.59       5.31          5.2           16.1

56   OASAM    Computer Security Tools               0         0.76         0.93           1.69
              Customer Service
57   OASAM    Modernization Program                             2           4.9           6.9
              (CSMP)
              Departmental E-Business
58   OASAM
              Suite (DEBS)
                                                   1.3        3.08         2.83           7.21
              Disaster Assistance
59   OASAM
              Improvement Plan
                                                   0.43       0.41         0.12           0.96
              E-Property Management and
60   OASAM
              Inventory Initiative
                                                   0.5        0.51         0.52           1.53

61   OASAM    E-Rulemaking                         0.69       0.23         0.27           1.18
              Electronic Capital Planning
62   OASAM    and Investment Control               0.2         0.2         0.23           0.63
              (eCPIC) System
              General System and
63   OASAM
              Customer Support
                                                   2.98       3.09          3.2           9.27

64   OASAM    Grants.gov                           0.18       0.18         0.17           0.53

65   OASAM    HR Line of Business                  1.87       1.53          3.9           7.3

66   OASAM    HR Works                             1.36        8.7         4.13          14.19

67   OASAM    HSPD-12                              5.83       4.62          2.8          13.25

68   OASAM    IAE Loans and Grants                 0.07       0.08         0.11           0.26
              ISS LOB FISMA Reporting
69   OASAM
              Tool - DOJ CSAM
                                                   0.28       0.27         0.25           0.79

                                                                   CPIC Needs Improvement
                                              18                 Report No. 23-14-009-07-723
                                       U. S. Department of Labor – Office of Inspector General


                                                                                       Total
                                                                                     FY 2010 to
                                               FY 2010    FY 2011    FY 2012
                                                                                      FY 2012
     Agency       CPIC Investment               Actual     Actual     Actual
                                                                                       Actual
                                                 Cost       Cost       Cost
                                                                                       Costs
                                              (millions) (millions) (millions)
                                                                                     (millions)
              ISS LOB FISMA Reporting
70   OASAM
              Tool - CyberScope
                                                    0        0.04         0.04           0.08
              Integrated Acquisition
71   OASAM
              Environment
                                                   0.18      0.15         0.15           0.48
              LOB: Budget Formulation and
72   OASAM
              Execution
                                                   0.1       0.11         0.11           0.31

73   OASAM    LOB: Financial Management            0.08      0.08         0.08           0.23

74   OASAM    LOB: Grants Management               0.11      0.08         0.17           0.36
              LOB: Human Resource
75   OASAM
              Management
                                                   0.07      0.07         0.07           0.2
              Safety and Health Information
76   OASAM    Management System                    1.32      1.61         0.78           3.71
              (SHIMS)
              Secretary's Information
77   OASAM
              Management System (SIMS)
                                                   1.32       0.4         0.52           2.24

78   OASAM    eProcurement                         1.88      1.22         1.22           4.32
              ELAW S (Employment Laws
79    OASP    Assistance for W orkers and          0.97      0.94         0.97           2.89
              Small Businesses)
              New Core Financial
80   OCFO     Management                           15.6      23.06        23.29         61.94
              System(NCFMS)

81   OCFO     OCFO - eGov Travel Service           0.8        0.8         1.07           2.66

82   OCFO     PeoplePower                           8          8            8             24

83    ODEP    Disability.gov                       2.04      2.04         2.05           6.13
              Federal Contractor
84   OFCCP
              Compliance System (FCCS)
                                                   0.85      3.73         3.62           8.21
              OFCCP Information System
85   OFCCP
              (OFIS)
                                                   3.16      3.25         2.52           8.93

86    OIG     e-OIG Information Systems            0.64      0.83         0.86           2.32
              Electronic Labor Organization
87    OLMS
              Reporting System (e.LORS)
                                                   2.07      2.15         2.22           6.45



                                                                  CPIC Needs Improvement
                                              19                Report No. 23-14-009-07-723
                                        U. S. Department of Labor – Office of Inspector General


                                                                                        Total
                                                                                      FY 2010 to
                                                  FY 2010    FY 2011    FY 2012
                                                                                       FY 2012
      Agency       CPIC Investment                 Actual     Actual     Actual
                                                                                        Actual
                                                    Cost       Cost       Cost
                                                                                        Costs
                                                 (millions) (millions) (millions)
                                                                                      (millions)
               OPA - DOL- National Contact
88     OPA
               Center Initiative (DOL-NCC)
                                                      3.42    3.08         3.08           9.58
               OPA - Enterprise
89     OPA
               Communications Initiative
                                                       7      7.36         7.13          21.49

90     OSHA    OSHA - Applications Support            2.35    2.64         2.50           7.49

91     OSHA    OSHA - Architecture Support            0.43    0.09          1.2           1.72
               OSHA - Expert Advisors (E-
92     OSHA
               Systems/E-Tools)
                                                       0.5     0.5          0.5           1.5

93     OSHA    OSHA - Help Desk                        1.6    1.21         2.35           5.16
               OSHA - Information System
94     OSHA
               (OIS)
                                                      16.16   15.97        10.78         42.91
               OSHA -
95     OSHA    Internet/Extranet/Intranet             1.35    1.71         1.59           4.65
               Operations and Maintenance
               OSHA - Measurement and
96     OSHA
               Reporting System (MARS)
                                                       0.1     0.1          0.1           0.29
               OSHA - Modernization of
97     OSHA    Collecting Injuries and Illness                  0            0             0
               Data
               OSHA - Technical Information
               Management System (TIMS),
98     OSHA    formerly identified as the             0.39    0.44         0.44           1.27
               Technical Information
               Retrieval System (TIRS).
               OSHA - Training,
99     OSHA    Documentation, and                      0.6    0.63          0.6           1.83
               Configuration Management
               Black Lung Claims System
100   OWCP
               (BLCS)
                                                      11.75   11.94        11.94         35.63
               Energy Compensation
101   OWCP
               System (ECS)
                                                      18.17   19.26        11.71         49.13
               Integrated Federal
102   OWCP     Employees' Compensation                23.97   18.92        18.92         61.81
               System (iFECS)
               Longshore Claims Systems
103   OWCP
               (LCS)
                                                      1.43    1.46         1.44           4.32
               OWCP Workers'
104   OWCP     Compensation System                     0        0          0.01           0.01
               (OWCS)


                                                                   CPIC Needs Improvement
                                                 20              Report No. 23-14-009-07-723
                                          U. S. Department of Labor – Office of Inspector General


                                                                                          Total
                                                                                        FY 2010 to
                                                 FY 2010    FY 2011    FY 2012
                                                                                         FY 2012
        Agency       CPIC Investment              Actual     Actual     Actual
                                                                                          Actual
                                                   Cost       Cost       Cost
                                                                                          Costs
                                                (millions) (millions) (millions)
                                                                                        (millions)
105      SOL     SOL - IT Modernization              4.64       5.02         4.88          14.53
                 Information Technology and
106      VETS
                 Research Support
                                                     0.73       0.75         0.78           2.25
                 USERRA Information
107      VETS
                 Management System (UIMS)
                                                     0.35       0.75         0.77           1.86

108      VETS    VETS-100 Reporting                  0.26       0.63         0.96           1.85
                 Back Wage Financial System
109      WHD
                 (BWFS)
                                                     1.92       1.98         1.73           5.63
                 Civil Money Penalty System
110      WHD
                 (CMPS)
                                                     1.04       1.07          1.1           3.21
                 Strategic Enforcement
                 Achieves Compliance
111      WHD
                 System (SEACS) & Prevailing
                                                                             0.47           0.47
                 Wage System (PW S)
                 Wage Determination System
112      WHD
                 (WDS)
                                                     8.01       3.19         4.31          15.51
                 Wage Hour Investigative
113      WHD     Support and Reporting               1.84       1.89         1.76           5.49
                 Database (W HISARD)
Total
                                                  $463.6      $486.03      $480.66       $1,430.28
Costs




                                                                     CPIC Needs Improvement
                                                21                 Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               22                 Report No. 23-14-009-07-723
                                                   U. S. Department of Labor – Office of Inspector General


                                                                                                           Exhibit 2
Investments Classified as Non-Major


                                                                                                        FY 2010 to
                              FY 2010                    FY 2011                   FY 2012
                                                                                                         FY 2012
     Investment 21                                                                                        Total
                         DME 22       O&M 23         DME          O&M          DME          O&M           Costs
                         (millions)   (millions)    (millions)   (millions)   (millions)   (millions)     (millions)
       ETA -
    Enterprise
    Business                $0        $11.63           $0        $5.70           $0        $6.23         $23.56
 Support System
      (EBSS)
  BLS - Current
   Employment
                             0         7.07             0         5.71            0         5.71          18.49
 Statistics (CES)
  Maintenance
       BLS -
   Technology
 Management &                0         6.07             0         5.86            0         5.74          17.66
     Strategic
     Activities
  OASAM - CIO
                             0         5.59             0         5.31            0         5.20           16.1
     Activities
 BLS - Quarterly
    Census of
   Employment
                             0         5.39             0         7.12            0         6.88          19.39
   and Wages
     (QCEW)
     Systems
 DOL - Agencies'
 General Support                                        0        98.53            0        99.22         197.76
     Systems
    ETA - Job
       Corps                                            0        26.04            0        14.18          40.21
    LAN/WAN
  OWCP - Black
   Lung Claims                                          0        11.94            0        11.94          23.89
 System (BLCS)
 BLS - LABSTAT
                                                        0         5.20            0         5.23          10.43
  Maintenance

21
   All funding based on OMB Exhibit 53s from: September 10, 2012 (BY 2014), May 2, 2012 (BY 2013), and
May 24, 2011 (BY 2012).
22
   DME- Development, Modernization, and Enhancement
23
   O&M- Operations & Maintenance

                                                                                     CPIC Needs Improvement
                                                            23                     Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               24                 Report No. 23-14-009-07-723
                                                  U. S. Department of Labor – Office of Inspector General


                                                                                                        Exhibit 3
Financial Management Investments Classified as Non-major


                                                                                                       FY 2010
                             FY 2010                       FY 2011                FY 2012                 to
     Investment 24                                                                                     FY 2012
                                                                                                        Total
                         DME          O&M           DME          O&M          DME          O&M          Costs
                        (millions)   (millions)    (millions)   (millions)   (millions)   (millions)   (millions)
  OWCP - Black
   Lung Claims             $0        $11.75           $0        $11.94          $0        $11.94       $35.63
 System (BLCS)
   WHD - Back
 Wage Financial             0         1.92             0         1.98            0         1.73         5.63
 System (BWFS)
   WHD - Civil
 Money Penalty              0         1.04             0         1.07            0          1.1         3.21
 System (CMPS)
   OASAM - E-
     Property
  Management                0         0.50             0         0.51            0         0.52         1.53
  and Inventory
     Initiative
     OWCP -
    Longshore
                            0         1.43             0         1.46            0         1.44         4.32
 Claims Systems
      (LCS)
         Total                                                                                         $50.32




24
 All funding based on OMB Exhibit 53s from: September 10, 2012 (BY 2014), May 2, 2012 (BY 2013), and
May 24, 2011 (BY 2012).

                                                                                   CPIC Needs Improvement
                                                           25                    Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               26                 Report No. 23-14-009-07-723
                                               U. S. Department of Labor – Office of Inspector General


                                                                                                   Exhibit 4
Investments Categorized as Not Applicable

                                                                                                   FY 2010
                             FY 2010                   FY 2011                   FY 2012              to
                                                                                                   FY 2012
 Investments 25                    O&M                       O&M                       O&M
                                  Steady                    Steady                    Steady        Total
                       DME         State         DME         State        DME          State        Costs
                     (millions)   (millions)   (millions)   (millions)   (millions)   (millions)   (millions)
        DOL -
      Agencies'
       General          $0        $78.46          $0        $98.53          $0        $99.22       $276.21
       Support
       Systems
     Technology
     Management
                         0          6.07           0          5.86           0          5.74        17.66
      & Strategic
       Activities

        Total                                                                                      $293.87




25
 All funding based on OMB Exhibit 53s from: September 10, 2012 (BY 2014), May 2, 2012 (BY 2013), and
May 24, 2011 (BY 2012).

                                                                              CPIC Needs Improvement
                                                       27                   Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               28                 Report No. 23-14-009-07-723
                                               U. S. Department of Labor – Office of Inspector General


                                                                                                   Exhibit 5
Investments Missing Significant Portions of CPIC Documentation

                                                                                                   FY 2010
                           FY 2010                   FY 2011                   FY 2012               to
                                                                                                   FY 2012
 Investments 26                    O&M                       O&M                       O&M
                                  Steady                    Steady                    Steady        Total
                       DME         State         DME         State        DME          State        Costs
                     (millions)   (millions)   (millions)   (millions)   (millions)   (millions)   (millions)
   DOL – IT
 Infrastructure       $12.9        $6.64         $5.1       $11.13        $8.15       $15.88       $59.81
 Modernization
   OASAM –
  Acquisition
                       2.14           0          2.14           0          7.14           0         11.43
 Management
     System

      Total                                                                                        $71.24




26
 All funding based on OMB Exhibit 53s from: September 10, 2012 (BY 2014), May 2, 2012 (BY 2013), and
May 24, 2011 (BY 2012).

                                                                              CPIC Needs Improvement
                                                     29                     Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               30                 Report No. 23-14-009-07-723
              U. S. Department of Labor – Office of Inspector General




Appendices





                                         CPIC Needs Improvement
                    31                 Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               32                 Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

DOL spends about $500 million annually on a portfolio of information technology (IT)
investments that support its mission and the delivery of customer services. This level of
spending requires DOL to develop and implement a comprehensive approach to
responsible management of these IT assets.

DOL’s integrated IT governance process is supported by the OCIO’s IT Capital Planning
and Investment Control (CPIC) Program. The CPIC Program uses the “Select-Control-
Evaluate” methodology to help program agencies and DOL’s executive leadership
select the appropriate IT investments for inclusion in the DOL IT portfolio, control the
ongoing effective performance of those investments, and evaluate how well those
investments achieve their intended results.

In 2000, GAO published an exposure draft of Information Technology Investment
Management: A Framework for Assessing and Improving Process Maturity (ITIM). Built
around the Select-Control-Evaluate approach described in the Clinger-Cohen Act of
1996, which established statutory requirements for IT management, the framework
provides a method for evaluating and assessing how well an agency is selecting and
managing its IT resources. The exposure draft reflected accepted or best practices in IT
investment management at that time, as well as the reported experience of federal
agencies and other organizations in creating their own investment management
processes.

In 2004, GAO issued an updated version of this exposure draft to take into account:
comments GAO had received; GAO’s experiences evaluating several agencies’
implementations of investment management processes and the lessons learned by
those agencies; and the importance of enterprise architecture (EA) as a critical frame of
reference in making IT investment decisions.

GAO asserted that using the framework to analyze an agency’s IT investment
management processes provides: (1) a rigorous, standardized tool for internal and
external evaluations of these processes; (2) a consistent and understandable
mechanism for reporting the results of assessments; and (3) a road map that agencies
can follow in improving their processes.

In March 2013, we identified inconsistent cost estimating practices that caused a lack of
credible capital planning that may negatively affect management’s decisions on IT
budgets and initiatives in a report titled Department's Information Technology Security
Program is Weakened by Deficiencies.

Due to the criticality of IT investment management and the finding in the OIG report
stated above, the OIG incorporated GAO’s ITIM framework in its audit of DOL’s
IT investment management processes.



                                                                CPIC Needs Improvement
                                           33                 Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               34                 Report No. 23-14-009-07-723
                                               U. S. Department of Labor – Office of Inspector General


                                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria


Objective

Has DOL established effective controls to manage the IT investment process?

Scope

Our audit included DOL’s portfolio of 113 27 IT investments reported to OMB for FYs 2010,
2011, and 2012. Additional FY 2013 documentation was considered for revisions and
finalization of FY 2012 reporting, corrections, and key investment information that was not
recorded for the previous 3 fiscal years. The total funding reported to OMB for FYs 2010,
2011, and 2012 totaled $1.43 billion. 28 In testing the IT investment portfolio, OIG examined
the applicable policies, procedures, and process controls DOL had in place and IT capital
planning processes, which included the electronic capital planning investment control
system (eCPIC). OIG work was performed at DOL’s National Office in Washington, DC.

Methodology

To evaluate whether DOL has established effective controls to manage the IT
investment process, we reviewed federal laws and regulations, along with DOL policies
and procedures applicable to the CPIC process. We then selected a sample of 15 IT
investments to use as case studies to determine if critical DOL processes had been
implemented in accordance with the OCIO’s IT CPIC policy.

We selected the 15 investments to test using a detailed two-tier, risk-based approach.
Specifically, the first 7 investments were selected by applying 7 risk factors to the
sample universe of 113 major and non-major IT investments. The 7 investments
selected were assigned the most risk factors. These factors included: total FY funding,
funding trend increase/decrease/spike, investment phase, descriptions with statements
incorporating terms for cloud/re-organization/IT funding, start dates with emphasis on
investments over ten years, OCIO scorecard ratings that included more than 25 percent
variances, and OCIO scorecards with differing statements between the internal
scorecard and OMB Exhibit 300 and 53 statements. The remaining 8 investments were
judgmentally selected so that the widest varieties of investments were included in the
testing selection. The 15 investments selected represented 51 percent, or $725 million,
of the total $1.43 billion in IT investments funded during FY 2010 through FY 2012.

We reviewed DOL’s process for classifying major investments by obtaining a copy of its IT
Portfolio, or Exhibit 53, for FY 2010 through FY 2012. We reviewed each of the investments
in the portfolio and identified those investments meeting DOL’s definition of a major


27
     Sources: OMB IT Dashboard and DOL eCPIC investment inventory, http://www.ITDashboard.gov.
28
     Source: DOL OMB Exhibit 53s for FY 2010, FY 2011, and FY 2012.

                                                                              CPIC Needs Improvement
                                                       35                   Report No. 23-14-009-07-723
                                      U. S. Department of Labor – Office of Inspector General


investment. Those investments’ identified as major were compared to DOL’s listing of major
investments and any exceptions were identified.

We evaluated DOL’s progress in developing a mature investment management process
using GAO’s ITIM Framework. We applied the framework by comparing all 13 elements of
the framework to the DOL’s CPIC processes. Our assessment was supported by our
review of documentation, discussions with DOL personnel, and our analysis of 15 business
cases provided in project management planning and OMB Exhibit 300 materials. Based on
the above information, we were able to assess the maturity of DOL’s CPIC process for
managing information technology investments.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform the
audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

Criteria

We used the following criteria to accomplish our audit:

   •	   Clinger-Cohen Act of 1996, Public Law 104-106
   •	   Office of Management and Budget (OMB) Circular A-11
   •	   OMB Circular A-130 Revised, “Management of Federal Information Resources”.
   •	   OMB Guidance on Exhibits 53 and 300 – Information Technology and E-

        Government, 2013

   •	   OMB 25 Point Implementation Plan to Reform Federal Information Technology
        Management, December 9, 2010
   •	   NIST Special Publication 800-65, Integrating IT Security into the Capital Planning
        and Investment Control Process
   •	   GAO’s Information Technology Investment Management (ITIM): A Framework for
        Assessing and Improving Process Maturity (GAO-04-394G)
   •	   GAO’s Information Technology; A Framework for Assessing and Improving

        Enterprise Architecture Management, Version 1.1 (GAO-03-584G)

   •	   DOL Computer Security Handbook Edition 4.0
   •	   DOL Guide to Completing the FY 2013 OMB Exhibit 53, Version 1.0
   •	   DOL Guide to Completing the FY 2013 OMB Exhibit 300, Version 1.2
   •	   DOL FY13 IT Investment Review Requirements, 2-20-2013
   •	   OCIO Systems Development Life Cycle Management (SDLCM) Manual, Version
        2.3
   •	   OCIO IT CPIC Guide: Managing IT Investments, Version 2.1
   •	   OCIO Earned Value Management Operational Guide, Version 1.7

                                                                 CPIC Needs Improvement
                                            36                 Report No. 23-14-009-07-723
                                  U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations


AGSS          Agency General Support System

AMS           Acquisition Management System

BLS           Bureau of Labor Statistics

CBA           Cost-Benefit Analysis

CPIC          Capital Planning Investment Control

EA            Enterprise Architecture

ECI           Enterprise Communications Initiative

DME           Development, Modernization, and Enhancement

DITIM         Department of Labor IT Infrastructure Modernization

DLMS          Department of Labor Manual Series

DOL           Department of Labor

EBSA          Employee Benefits Security Administration

ECI           Enterprise Communications Initiative

eCPIC         Electronic Capital Planning Investment Control System

EFAST2        ERISA Filing Acceptance System 2

ERISA         Employee Retirement Income Security Act

ETA           Employment Training Agency

EVM           Earned Value Management

FY            Fiscal Year

GAO           Government Accountability Office

IT            Information Technology



                                                             CPIC Needs Improvement
                                           37              Report No. 23-14-009-07-723
                              U. S. Department of Labor – Office of Inspector General


ITIM    Information Technology Investment Management

LOB     Line of Business

MSHA    Mine Safety and Health Administration

MSIS    MSHA Standard Information System

NCFMS   New Core Financial Management System

NIST    National Institute of Standards and Technology

O&M     Operations and Maintenance

OASAM   Office of the Assistant Secretary for Administration and Management

OIG     Office of Inspector General

OCIO    Office of the Chief Information Officer

OCFO    Office of the Chief Financial Officer

OMB     Office of Management and Budget

OPA     Office of Public Affairs

OWCP    Office of Workers' Compensation Programs

PIR     Post Implementation Review

SDLCM   System Development Life Cycle Management

SOL     Department of Labor Office of the Solicitor

SP      Special Publication

TMSA    Technical Management & Strategic Activities

WBS     Work Breakdown Structure

WDS     Wage Determination System

WHD     Wage and Hour Division




                                                         CPIC Needs Improvement
                                    38                 Report No. 23-14-009-07-723
                                                      U. S. Department of Labor – Office of Inspector General


                                                                                                             Appendix D
                                               29
CIO Response to Draft Report

                                                    Office of the Assistant Secretary
           U.S. Department of Labor                 for Administration and Management
                                                    Washington, D.C. 20210




               DEC - ;;   ')I ,.,




             MEMORANDUM FOR ELLIOT P. LEWIS
                            Assistant Inspector General ~dit                            ~


             FROM:                    EDWARD c. HUGLERC              .cf!          ~
                                      Deputy Assistant Secretary for Operat ons

             SUBJECT:                 Management' s Response to the Office of the Inspector General Draft
                                      Report entitled: Improvements Needed to DOL's Capital Planning and
                                      Investment Controls for Managing Information Technology
                                      Investments, Report No. 23-14-009-07-723

             This responds to the above-described draft report, dated November 29, 2013. The stated
             objective of the audit was to determine whether the Department has established effective controls
             to manage the IT investment process.

             At the outset, management acknowledges that any process can be improved and we will take
             appropriate action to update Department-wide policies, processes and procedures to address the
             fi ndings outlined in the draft report. During the audit, management expressed concern about the
             portrayal of IT investment management as a whole- including the nature, severity and
             ramifications of the findings. For the most part, the auditors have accommodated our input in the
             draft report. We appreciate the consideration.

             With the forgoing in mind, management accepts the recommendations in the audit repo11 and
             will take the following actions.

            Recommendation 1. Peiform a DOL-wide review ofthe IT Portfolio and lite Investment
            M:anagement Process to verify classifictltion of all IT investments.

            Response: Management accepts this recommendation and will verify the classification of all
            DOL IT investments by Q3 FY14.

            Recommendation 2. Update IT capital planning and investment control policies, procedures
            and documentation to reflect ami clarify: (a) Use oftlte capital planning tool and (b) the
            comprehensiveness of the investment numagement process and enforcement to maintain
            required eCPIC documentation for critical processes involving t!te select, control, a1UI
            evaluate pltases.

            Response: Management accepts this recommendation and will update DOL CPIC
            documentation and clarify the intended usage of eCPIC by Q4 FY14.




29
     OASAM’s Deputy Assistant Secretary for Operations responded for the CIO.

                                                                                          CPIC Needs Improvement
                                                               39                       Report No. 23-14-009-07-723
                                       U. S. Department of Labor – Office of Inspector General 





Recommendation 3. Implement tm investment management framework consistent with NIST
SP 800-65 and wlticlt aligns with GAO's 111M maturity framework to strengtherz DOL 's
approach to IT investment management.

Response: Management accepts this recommendation and will review and consider the key
practices specified in GAO' s ITIM Maturity Framework for inclusion in DOL's IT investment
management processes with emphasis on Stages 2 and 3, as inferred from the discussion of
Finding 2 by Q3 FY14.

As always, we appreciate the opportunity to provide input and look forward to the continued
collaboration with your office. If you have any questions or comments please contact me at
(202) 693-4040 or have your staff contact Pete Sullivan, Director IT Governance, at
Sullivan.Peter@dol.gov or (202) 693-4211.

cc:    T. Michael Kerr, ASAM, CIO
       Dawn Leaf: Deputy CIO




                                               2




                                                                           CPIC Needs Improvement
                                                40                       Report No. 23-14-009-07-723
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix E
Acknowledgements

Key contributors to this report were Keith Galayda (Audit Director), Ethan Iczkovitz,
Christian Arsenault, Victor Chan, Micaela Jimenez, and Tia Salmon.




                                                                CPIC Needs Improvement
                                            41                Report No. 23-14-009-07-723
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    CPIC Needs Improvement
               42                 Report No. 23-14-009-07-723
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:


Online:            http://www.oig.dol.gov/hotlineform.htm
Email:             hotline@oig.dol.gov

Telephone:         1-800-347-3756
                   202-693-6999

Fax:               202-693-7020

Address:           Office of Inspector General
                   U.S. Department of Labor
                   200 Constitution Avenue, N.W.
                   Room S-5506
                   Washington, D.C. 20210
